No:
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
DE ANDRE SMITH,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, De Andre Smith through undersigned counsel and pursuant to SUP.
CT. R. 29.2 and 28 U.S.C. ยง 1746, declares that on the 5th day of March, 2021, the
Petition for Writ of Certiorari filed in the above-styled matter was placed in an
envelope via third party commercial carrier for delivery within three days, addressed
to the Clerk of the Supreme Court of the United States.
.
MICHAEL CARUSO
Federal Public Defender
Fort Lauderdale, Florida
March 5, 2021

By:

s/ Bernardo Lopez________________
Bernardo Lopez
Assistant Federal Public Defender
One East Broward Boulevard, Suite 1100
Fort Lauderdale, Florida 33301-1842
Telephone No. (954) 356-7436

